No. 19-251

 

IN THE

Supreme Court of the Anited States

AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,

Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit

PETITIONER’S REPLY BRIEF

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 10, 2019.

Colin Casey i

Wilson-Epes Printing Co., Inc.
